TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Taxpayer Advocate Service Should
                        Reevaluate the Roles of Its Staff
                      and Improve the Administration of the
                            Taxpayer Advocacy Panel



                                      September 29, 2009

                              Reference Number: 2009-10-121




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 29, 2009


 MEMORANDUM FOR NATIONAL TAXPAYER ADVOCATE

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Taxpayer Advocate Service Should
                               Reevaluate the Roles of Its Staff and Improve the Administration of the
                               Taxpayer Advocacy Panel (Audit # 200910001)

 This report presents our review of the Taxpayer Advocate Service’s (TAS) administration of the
 Taxpayer Advocacy Panel (hereafter referred to as the Panel). The overall objective of this
 review was to determine whether the Panel is operating in accordance with its charter and
 whether the Panel and the TAS are utilizing resources efficiently to promote improvements in
 Internal Revenue Service (IRS) customer service. This audit is part of our Fiscal Year 2009
 Annual Audit Plan under the major management challenge of Providing Quality Taxpayer
 Service Operations.

 Impact on the Taxpayer
 The Panel was established in Calendar Year 2002 to listen to taxpayers, identify “grass roots”
 issues, and make recommendations for improving the customer service provided by the IRS.1
 The Panel provides a valuable service to the IRS and to taxpayers in this role. However, the
 TAS needs to ensure a better use of its resources by providing a better balance between the costs
 of administration and staff ($2.7 million and 25 TAS employees) used to support the Panel, the
 large size of the Panel, and the Panel’s ability to help improve service to taxpayers. In this
 current economic environment where there is greater emphasis on accountability for Federal
 programs, it is important for the National Taxpayer Advocate (NTA) to ensure that TAS
 resources are being effectively and efficiently spent and that the Panel is at an optimal size.



 1
   TAS management advised us the Panel structural alignment was the result of a cross-functional team that included
 representatives from various IRS operating divisions.
                           The Taxpayer Advocate Service Should Reevaluate
                          the Roles of Its Staff and Improve the Administration
                                    of the Taxpayer Advocacy Panel



Synopsis
Advisory committees play an important role in shaping the programs and policies of the Federal
Government by providing input and advice to key decision makers. However, the costs
associated with supporting and maintaining these committees should be balanced with the
benefits received to ensure the best use of Government resources.
The number of members serving on the Panel (approximately 100)2 could be significantly
reduced, thereby requiring fewer TAS resources for oversight. In addition, recruiting for Panel
members is an extensive process and involves a high cost. Panel members serve staggered
3-year terms, which means approximately one-third are completing their terms each year.
Consequently, the TAS can spend up to 7 months each year recruiting and selecting new Panel
members to replace those whose terms have expired.
The TAS also needs to clarify its role in assisting the Panel to ensure its independence. While
some of the duties performed by TAS staff are vital for the Panel to operate effectively (e.g.,
arranging meetings, scheduling travel), many appear to go beyond administrative-type activities
and could unintentionally influence the work that the Panel performs or give the impression that
the Panel did not develop the issues and recommendations independently.
Further, the Panel’s charter does not account for a significant amount of the work completed by
its membership. A large portion of the recommendations, 245 (58 percent) of 426,3 made by the
Panel since its inception are IRS-driven issues (e.g., the IRS requesting the Panel to provide the
taxpayer’s perspective on issues the IRS is working on). However, the charter, which is a public
document, contains language that mainly focuses on “grass roots”4 issues and does not include
this important, additional role that Panel members perform.
In addition, a significant number of inaccurate entries in the Panel database led to overstatements
in the performance measures reported to the General Services Administration by the TAS. For
example, 46 recommendations were incorrectly identified as agreed to by the IRS when, in fact,
the IRS disagreed with all or a part of the Panel’s recommendations. Since Congress and the
General Services Administration rely on this information to evaluate the performance and the
need for the continued existence of advisory committees, it is important that the information
reported to them is accurate. The TAS can also strengthen its processes for performing tax
compliance checks on Panel members to ensure that noncompliance is addressed timely.




2
  There are also 100 alternates; however, the alternates do not serve on the Panel or participate in meetings.
3
  Subsequent to our review, TAS management informed us that the correct number of recommendations was 429
and that 264 (62 percent) were IRS-driven issues.
4
  Grass roots issues are identified by the general public or Panel committee members, not the IRS.
                                                                                                                 2
                        The Taxpayer Advocate Service Should Reevaluate
                       the Roles of Its Staff and Improve the Administration
                                 of the Taxpayer Advocacy Panel



Recommendations
The NTA should take the following actions: 1) revise its time tracking system and require TAS
staff to track hours by activity to assist in determining if TAS resources are being used
efficiently; 2) reevaluate the Panel’s structure and size to ensure an appropriate balance between
TAS staff and budgetary resources used to support the Panel; 3) reevaluate the roles of the staff
assigned to assist the Panel and establish guidance to ensure that the Panel functions
independently; 4) revise the charter to accurately reflect the liaison role that TAS employees
provide Panel members and accurately reflect the dual roles of Panel members;
5) establish and implement a process to validate data in the Panel database and correct the
46 erroneous database entries we identified during our review; 6) establish a process to follow up
with the IRS on the recommendations under consideration for future implementation and request
that the IRS provide the anticipated date of implementation; 7) establish formal guidance for
conducting tax compliance checks of Panel members; and 8) develop procedures to verify that
licensed tax practitioners serving on the Panel are in good standing with the IRS.

Response
The NTA agreed with seven recommendations and partially agreed with one recommendation.
Management agreed to revise its time tracking system to require TAS staff to track hours by
activity. The TAS also agreed to study whether centralization of support services will provide
improved service to the Panel, as well as review the recruitment and selection process of Panel
members for potential costs savings. In addition, the TAS agreed to provide further guidance on
the liaison role of the TAS staff assigned to the Panel. The TAS also agreed to revise the Panel’s
charter to more accurately reflect the roles of the TAS staff and Panel members. Further, the
TAS agreed to implement procedures to ensure the validity of the Panel database, review the
46 potentially invalid entries we identified, and correct any erroneous entries in the Panel
database. TAS management also agreed to establish a process to follow up on and track the
implementation of recommendations accepted by the IRS. Also, the TAS agreed to establish
formal guidance for conducting tax compliance checks and agreed to conduct limited annual
compliance checks on continuing members. Finally, the TAS agreed to establish procedures to
verify the good standing of the licensed practitioners serving on the Panel.
The NTA did not fully agree with the recommendation to reevaluate the Panel’s size to
determine the optimal structure of the Panel’s membership, indicating there was no compelling
data that the current structure is flawed, and that it would not be cost effective to make such
changes. In addition, the NTA noted that any changes to the Panel require approval by the
Secretary of the Treasury and the IRS Commissioner. Management’s complete response to the
draft report is included as Appendix VIII.

Office of Audit Comment

                                                                                                  3
                       The Taxpayer Advocate Service Should Reevaluate
                      the Roles of Its Staff and Improve the Administration
                                of the Taxpayer Advocacy Panel


We acknowledge the Panel can provide a fresh perspective on grass roots issues based on the
input of the volunteer members serving on the Panel. However, since the Panel was established
in 2002 and no studies have been performed of it, we believe that our recommendation to
reevaluate the structure and size of the Panel and the TAS staff supporting the Panel is valid.
This type of evaluation will determine whether the level of resources for both the Panel and TAS
support is still appropriate in the current environment or whether the level could be reduced
while still meeting the intended goals of the Panel. In the current environment of increased
accountability in Government, we believe this evaluation is important to identify any potential
changes that could reduce costs and improve efficiency. We also believe the NTA can initiate
any recommended improvements to the Panel, if warranted, for approval by the Secretary of the
Treasury and the IRS Commissioner.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                               4
                                The Taxpayer Advocate Service Should Reevaluate
                               the Roles of Its Staff and Improve the Administration
                                         of the Taxpayer Advocacy Panel




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Taxpayer Advocate Service Staffing and Size of the Panel May
          Not Be Optimal or an Efficient Use of Resources........................................Page 5
                    Recommendations 1 and 2: ..............................................Page 7

          Panel Activities May Be Unintentionally Influenced by Taxpayer Advocate
          Service Management and Are Not Adequately Identified in the Charter.....Page 8
                    Recommendations 3 and 4: ....................................................... Page 10

          Misclassified and Unverified Recommendations Led to an Overstatement
          of Accomplishments ......................................................................................Page 10
                    Recommendation 5:........................................................Page 12

                    Recommendation 6:........................................................Page 14

          Tax Compliance Reviews for Current and Prospective Members
          Occur Infrequently and Are Incomplete ........................................................Page 14
                    Recommendation 7:........................................................Page 15

                    Recommendation 8:........................................................Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Outcome Measure ................................................................Page 22
          Appendix V – Taxpayer Advocacy Panel Issue Committees -
          Fiscal Year 2009 ...........................................................................................Page 23
          Appendix VI – Taxpayer Advocate Service Staff ........................................Page 24
          Appendix VII – Definition of Recommendations.........................................Page 25
                The Taxpayer Advocate Service Should Reevaluate
               the Roles of Its Staff and Improve the Administration
                         of the Taxpayer Advocacy Panel



Appendix VII – Management’s Response to the Draft Report.....................Page 26
         The Taxpayer Advocate Service Should Reevaluate
        the Roles of Its Staff and Improve the Administration
                  of the Taxpayer Advocacy Panel




                   Abbreviations

FACA         Federal Advisory Committee Act
GSA          General Services Administration
IRS          Internal Revenue Service
NTA          National Taxpayer Advocate
OPR          Office of Professional Responsibility
TAS          Taxpayer Advocate Service
TIGTA        Treasury Inspector General for Tax Administration
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel




                                             Background

The Taxpayer Advocacy Panel (hereafter referred to as the Panel) was established in
Calendar Year 2002 to listen to taxpayers, identify “grass roots” issues,1 and make
recommendations for improving the customer service provided by the Internal Revenue Service
(IRS).2 The Taxpayer Advocate Service (TAS) oversees the Panel by providing technical,
administrative, and clerical support. The TAS also assists the Panel by tracking the Panel’s
recommendations and recording the IRS’ responses to the recommendations in a database.
The Panel consists of volunteer members from around the Country who are appointed by the
Secretary of the Treasury to represent each State, the District of Columbia, and Puerto Rico.
There are approximately 100 Panel members and 100 alternate members. Members are expected
to volunteer at least 300 to 500 hours each year (about 6 to 10 hours per week), and each member
is expected to serve on two committees – an Area Committee and an Issue Committee.
Area Committees are geographically based and members solicit grass roots issues from taxpayers
in their communities. The Panel identifies issues through member outreach events and public
meetings, develops some of these issues into recommendations, and submits them to the IRS for
consideration. In addition, the Panel has a toll-free telephone line and a web site where
taxpayers can communicate concerns about the IRS.
The TAS established eight Issue Committees3 that work closely with the IRS to provide
“pre-decisional” feedback4 to IRS management representatives (called program owners) on
specific issues and initiatives affecting taxpayers. The IRS program owners have responsibility
for various functions within the Small Business/Self-Employed and the Wage and Investment
Divisions. The IRS utilizes the Panel Issue Committees to obtain public input on a variety of
issues impacting tax administration.
The Panel is one of more than 900 Federal advisory committees currently in existence
throughout the Federal Government that fall under the purview of the Federal Advisory
Committee Act (FACA) of 1972.5 The FACA was enacted to control the growth and operation
of advisory committees and to ensure accountability to the public. In doing so, the FACA


1
  Grass roots issues are identified by the general public or Panel committee members, not the Internal Revenue
Service.
2
  Taxpayer Advocate Service management advised us the Panel structural alignment was the result of a
cross-functional team that included representatives from various IRS operating divisions.
3
  See Appendix V for a description of the Issue Committees.
4
  This includes survey results, focus group input, or other advice that IRS management may seek as part of a
decision-making process.
5
  Public Law 92-463.
                                                                                                            Page 1
                             The Taxpayer Advocate Service Should Reevaluate
                            the Roles of Its Staff and Improve the Administration
                                      of the Taxpayer Advocacy Panel



ensures that the advice rendered by advisory committees is both objective and accessible to the
public. In addition, the General Services Administration (GSA) monitors and reports on each
advisory committee’s compliance with the FACA. In this role, the GSA collects and compiles
data from the individual committees and conducts an annual comprehensive review of the
activities and responsibilities of each advisory committee.
The Panel’s charter requires the yearly submission of a report to the Secretary of the Treasury,
the IRS Commissioner, and the National Taxpayer Advocate (NTA). This annual report
provides a self-assessment of the work completed by the Panel, including outreach activities and
recommendations made to improve service to taxpayers. Since its inception in Calendar
Year 2002 through December 31, 2008, the Panel has issued 5 annual reports and has made
4266 recommendations to improve the IRS’ service to taxpayers.
This review was performed at the IRS National Headquarters in Washington, D.C., and the
TAS offices in Plantation, Florida; Brooklyn, New York; and Milwaukee, Wisconsin, during the
period September 2008 through June 2009. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




6
    Subsequent to our review, TAS management informed us that the correct number of recommendations was 429.
                                                                                                       Page 2
                           The Taxpayer Advocate Service Should Reevaluate
                          the Roles of Its Staff and Improve the Administration
                                    of the Taxpayer Advocacy Panel




                                     Results of Review

The Panel provides a valuable service to the IRS and taxpayers by recommending ways to
improve customer service and overall tax administration. Some of the Panel’s recommendations
which have benefitted taxpayers include:
    •   The IRS now provides paper copies of any current year IRS forms (other than scannable
        forms) and instructions at all walk-in Taxpayer Assistance Centers7 to help taxpayers
        prepare their tax returns.
    •   Taxpayers living in Federal disaster areas may now receive a free copy of their most
        recent tax return, regardless of the underlying reason. The IRS normally charges
        taxpayers a fee of $57 for a copy of a filed tax return.
    •   The IRS eliminated the requirement to file a second extension form to receive an
        additional 2 months to file individual income tax returns. Now, taxpayers only have to
        file one extension form to receive an automatic 6-month extension.
While the Panel can provide a fresh perspective on grass roots issues, we identified several ways
the TAS can improve its oversight and administration of the Panel to ensure a better use of
resources.
The TAS should reevaluate the size of the Panel. The number of members serving on the Panel
(approximately 100)8 could be significantly reduced, thereby requiring fewer TAS resources for
oversight. In addition, recruiting for Panel members is an extensive process and involves a high
cost. Panel members serve staggered 3-year terms, which means that approximately one-third
are completing their terms each year. Consequently, the TAS can spend up to 7 months each
year recruiting and selecting9 new Panel members to replace those whose terms have expired. If
the size of the Panel were reduced, the TAS’ recruiting efforts could be significantly lessened.
The TAS also needs to clarify its role in assisting the Panel to ensure the Panel’s independence.
While some of the duties performed by the TAS staff are vital for the Panel to operate effectively
(e.g., arranging meetings, scheduling travel), many appear to go beyond administrative-type
activities and could unintentionally influence the work that the Panel performs or give the
impression that the Panel did not develop the issues and recommendations independently. In

7
  An IRS organization with employees who answer questions, provide assistance, and resolve account-related issues
for taxpayers face to face.
8
  There are also 100 alternates; however, the alternates do not actively serve on the Panel.
9
  The recruitment process generally begins in March. Candidates are ranked and interviewed and after tentative
selections are made, Federal Bureau of Investigation background and tax compliance checks are generally
completed by September. Final confirmation is generally made by October or November.
                                                                                                          Page 3
                          The Taxpayer Advocate Service Should Reevaluate
                         the Roles of Its Staff and Improve the Administration
                                   of the Taxpayer Advocacy Panel



contrast to the other IRS advisory committees we contacted, the TAS staff was much more
involved in the Panel’s daily operations and took on more technical roles such as identifying
issues to work, educating the Panel on tax law and procedural issues, and interacting with the
IRS operating divisions on behalf of the Panel. The NTA advised us that one reason for the
increased involvement by the TAS staff is the nature of the Panel members, many of whom are
not tax experts and do not understand how the IRS operates.
Further, the Panel’s charter does not account for a significant amount of work completed by the
Panel membership. A large portion of the recommendations, 245 (58 percent) of 426,10 made
since the Panel’s inception pertain to IRS-driven issues (e.g., the IRS requesting the Panel to
provide the taxpayer’s perspective on issues the IRS is working on). However, the charter,
which is a public document, contains language that mainly focuses on “grass roots” issues and
does not include this important, additional role that Panel members perform. It is important for
the NTA to revise the language in the charter to provide transparency to the public by clearly
defining the roles and responsibilities of the Panel.
The TAS also needs to ensure a better balance between the costs of administration and staff
($2.7 million and 25 TAS employees) used to support the Panel, the size of the Panel, and the
Panel’s ability to help improve service to taxpayers. The TAS established a separate function
within its organization to support the Panel with field offices in the following locations:
Plantation, Florida; Brooklyn, New York; Seattle, Washington; and Milwaukee, Wisconsin.
However, because of the Panel’s large membership and the TAS’ decentralized structure, the
TAS devotes a significant amount of resources to support the Panel. In this current economic
environment where there is greater emphasis on accountability for Federal programs, it is
important for the NTA to reevaluate the TAS’ structure and role regarding the Panel as well as
the size of the Panel and determine the optimal staffing.
In addition, we identified a significant number of inaccurate entries in the Panel database that led
to overstatements in the performance measures reported to the GSA by the TAS. For example,
46 recommendations were incorrectly identified as agreed to by the IRS when, in fact, the IRS
disagreed with all or a part of the Panel’s recommendations. Since Congress and the GSA rely
on this information to evaluate the performance and the need for the continued existence of
advisory committees, it is important that the information reported to them is accurate. The TAS
can also strengthen its processes for performing tax compliance checks on Panel members to
ensure that noncompliance is addressed timely.




10
  Subsequent to our review, TAS management informed us that the correct number of recommendations was 429
and that 264 (62 percent) were IRS-driven issues.
                                                                                                    Page 4
                             The Taxpayer Advocate Service Should Reevaluate
                            the Roles of Its Staff and Improve the Administration
                                      of the Taxpayer Advocacy Panel



The Taxpayer Advocate Service Staffing and Size of the Panel May
Not Be Optimal or an Efficient Use of Resources
The TAS provides a significant amount of support to the Panel in terms of Full-Time
Equivalent11 staffing and both technical and administrative assistance. As of June 2009, the TAS
employed 25 Full-Time Equivalents with an anticipated annual expense of approximately
$3 million to oversee Panel members’ activities. Notably, the labor expense for
Fiscal Year 2008 was approximately $1.8 million and is expected to increase to more than
$2 million in Fiscal Year 2009. See Figure 1 for the TAS labor costs for overseeing the Panel
since Fiscal Year 2003.12
                                        Figure 1: TAS Labor Costs



          $2,500,000
                                                        $1.9 million $1.9 million           $2.0 million
          $2,000,000           $1.7 million $1.8 million                          $1.8 million

          $1,500,000     $1.3 million

          $1,000,000
            $500,000
                   $0
                           2003         2004      2005         2006        2007        2008         2009
                                                          Fiscal Year

     Source: Expense report of straight labor costs as provided by TAS management. The costs have been rounded up
     for presentation. The labor costs for Fiscal Year 2009 are estimated.13

The size of the Panel, with approximately 100 primary members, directly affects the TAS’
expenses and staffing requirements. Because of the large size of the Panel membership, the TAS
devotes up to 7 months each year for recruiting and selecting new members. During the 2008
open recruitment period, the TAS processed 620 applications and selected 43 new members to
serve on the Panel.


11
   A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2009, 1 Full-Time Equivalent is equal to 2,088 staff
hours.
12
   See Appendix VI for more information on TAS staffing.
13
   The TAS reported higher labor costs to the GSA by approximately 3 percent for FYs 2005 through 2008 since
additional TAS personnel provide support to the Panel on an as needed basis.
                                                                                                             Page 5
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel



We also attribute the overall increase in labor costs to the TAS’ decentralized structure. The
TAS staff is located in six IRS offices14 throughout the country, with managers and support staff
in each office. This structure results in a higher ratio of managers to employees than other
program areas under the NTA. For example, the span of control15 for the Panel is 4:1, whereas,
the authorized span of control for the TAS business unit as a whole is 10:1. This means that the
TAS dedicates more management staff (on a percentage basis) to the Panel than to other mission
critical areas within the TAS.
In recent years, various IRS programs have consolidated operations and centralized functions to
reduce costs and improve efficiency. Since the TAS’ decentralized structure affects staff and
budget resources, consideration should be given to whether this is the most effective structure for
supporting the Panel. In our opinion, the size of the Panel should be structured to allow for
diverse viewpoints in terms of members’ backgrounds and yet manageable in terms of the budget
and TAS staffing resources.
Another significant factor in the size of the TAS staff is the role the TAS performs in supporting
the Panel. We analyzed the roles of the TAS and found that not only does the TAS provide
administrative support (e.g., scheduling meetings and making travel arrangements), but the TAS
staff also performs technical-related duties (e.g., gathering data, preparing documents to outline
issues). To help guide TAS employees regarding the administration of the Panel, the TAS
drafted a separate Internal Revenue Manual section.16 The TAS also established a support
function within its organization for the sole purpose of supporting the Panel. These actions
illustrate the TAS’ level of involvement with and resource commitment to the Panel.
However, the TAS is not able to determine how its resources are specifically being used to
support the Panel. Although the TAS staff does not have other collateral duties and charges all
its time to Panel activities, there is no other method for tracking time spent on the various duties
undertaken by the TAS to support the Panel. Therefore, neither the TAS nor the NTA can
quantify how many hours TAS employees spend on recruiting activities versus hours spent
conducting research for an Area or Issue Committee. We believe having this kind of detailed
information would be helpful in identifying if TAS resources are being used effectively and
efficiently. In addition, if the TAS tracked its time by activity, it could better assess the
resources needed to support the Panel.
When the Panel was first assigned to the TAS, the IRS hired an independent consulting agency
to establish a baseline staffing model for supporting the Panel. The study was completed in


14
   The six IRS offices are located in Washington, D.C.; Fort Lauderdale, Florida; Atlanta, Georgia;
Brooklyn, New York; Seattle, Washington; and Milwaukee, Wisconsin.
15
   Span of control is defined as the number of employees supervised by one manager.
16
   Draft Internal Revenue Manual Section 13.7.1, dated January 2009. In general, the Internal Revenue Manual
provides an organization with specific policies and procedures and provides transparency to the public about how
the IRS carries out its tax administration duties.
                                                                                                           Page 6
                        The Taxpayer Advocate Service Should Reevaluate
                       the Roles of Its Staff and Improve the Administration
                                 of the Taxpayer Advocacy Panel



Calendar Year 2002 and, at that time, the TAS had 18 Full-Time Equivalents dedicated to the
Panel. The firm presented the IRS with three staffing models to consider; however, the current
staffing configuration does not fit any of these models. Further, the TAS has not reevaluated its
staffing model in the 6 years since the Panel’s inception. In this current environment of
increased accountability and transparency in Government, it is important that the TAS staff track
its time and the activities performed to support the Panel, and TAS management reevaluate the
structure and size of the program to ensure that TAS and Panel resources are used efficiently.
Recommendations
The NTA should:
Recommendation 1: Revise its time tracking system and require the TAS staff to track hours
by activity (e.g., recruiting, researching, handling administrative matters). Doing so will provide
the NTA with information to help in completing Recommendation 2.
       Management’s Response: Management agreed with the recommendation and will
       begin to track hours by activity.
Recommendation 2: Reevaluate the Panel’s structure and size to ensure an appropriate
balance between TAS staff and budgetary resources used to support the Panel. This would
include:
   •   Identifying ways to reduce costs by centralizing operations.
   •   Reducing the costs of the applicant recruitment and selection process.
   •   Reducing the Panel membership.
       Management’s Response: Management agreed in part with our recommendation.
       Management indicated they plan to: 1) review and rewrite the position descriptions for
       the TAS staff; 2) establish a task group to review whether centralization would provide
       improved service to the Panel; and 3) establish a task group to review whether staggered
       3-year terms are appropriate for Panel membership. Management did not fully agree to
       reevaluate the Panel’s size to determine the optimal structure of the Panel’s membership,
       indicating there was no compelling data that the current structure is flawed and that it
       would not be cost effective to make such changes. In addition, the NTA noted that any
       changes to the Panel require approval by the Secretary of the Treasury and the IRS
       Commissioner.
       Office of Audit Comment: We acknowledge the Panel can provide a fresh
       perspective on grass roots issues based on the input of the volunteer members serving on
       the Panel. However, because the Panel was established in 2002 and no studies have been
       performed of it, we believe that our recommendation to reevaluate the structure and size
       of the Panel and the TAS staff supporting the Panel is valid. This type of evaluation will

                                                                                            Page 7
                           The Taxpayer Advocate Service Should Reevaluate
                          the Roles of Its Staff and Improve the Administration
                                    of the Taxpayer Advocacy Panel



           determine whether the level of resources for both the Panel and TAS support is still
           appropriate in the current environment or whether the level could be reduced while still
           meeting the intended goals of the Panel. In the current environment of increased
           accountability in Government, we believe this evaluation is important to identify any
           potential changes that could reduce costs and improve efficiency. We also believe the
           NTA can initiate any recommended improvements to the Panel, if warranted, for
           approval by the Secretary of the Treasury and the IRS Commissioner.
Panel Activities May Be Unintentionally Influenced by Taxpayer
Advocate Service Management and Are Not Adequately Identified in
the Charter
The TAS’ extensive level of involvement with the Panel also raises concerns about the ability of
the Panel to provide independent advice to the IRS. According to its annual report, the Panel
stated that, “to maintain independence and credibility, the work of the Panel must be directed and
largely accomplished by its citizen volunteer members.”
We analyzed the roles actually performed by the TAS and compared that to the roles outlined in
the Panel’s charter, the guiding document for an advisory committee. According to the charter,
the TAS provides support services to the Panel. However, the charter does not define the nature
and extent of the services the TAS will perform. In general, support includes providing office
space, supplies and equipment, administrative staff assistance, and access to key decision
makers.17
As stated earlier, the TAS provides administrative and technical support to the Panel and
collaborates with Panel members in developing issues and making recommendations. Since the
TAS staff is responsible for obtaining taxpayer input from the Panel’s toll-free telephone number
and web site, the TAS will generally conduct research on an issue before it is presented to the
Panel for consideration. The TAS advised us that this research assists the Panel members in
better understanding the issue. In addition, the TAS staff helps Panel members identify issues of
current concern by performing outreach events. Many of the Panel members do not have a
background in tax administration, so the TAS staff educates them on the applicable tax law and
the various processes pertaining to IRS programs. Once the Panel chooses to work on a given
issue, the TAS staff continues to be involved in the process. This includes:
       •   Drafting a plan of action to serve as a guide through the various actions needed and items
           to be considered.
       •   Preparing an issue statement which identifies the extent of the problem and the potential
           impact on various stakeholders.

17 “
   Support” is described in 41 CFR Section 102-3.95, Federal Advisory Committee Management; Final Rule,
July 1, 2008.
                                                                                                      Page 8
                          The Taxpayer Advocate Service Should Reevaluate
                         the Roles of Its Staff and Improve the Administration
                                   of the Taxpayer Advocacy Panel



     •   Working with Panel members to develop a research plan in order to help identify the best
         solutions.
Further, the TAS staff may assist the Panel in drafting recommendations, preparing written
responses to the IRS, and acting as an intermediary between the IRS and the Panel members.
Sometimes this latter role involves the TAS contacting the business units requesting more work
for Panel members.
The degree of collaboration between the Panel and the TAS staff is unique in comparison to the
other IRS advisory committee staff we interviewed. Typically, the IRS support staff for these
committees performed administrative-type duties and were called upon on an as-needed basis.
For example, the support staff for all committees makes travel arrangements, processes travel
vouchers, and arranges committee meetings. However, the other IRS committee staffs were not
typically as involved in the daily workings of their respective committees as the TAS. This is
partly because the other IRS committee members were much more likely to be tax professionals
or have management or administrative expertise. As such, they likely required much less
technical advice from their support staff. We believe this contributes to their ability to act
autonomously.
While some of the technical-related duties performed by the TAS may be considered “support”
or liaison work, some of it may be seen as unintentionally influencing the Panel to select issues
to work and/or determine potential recommendations. The FACA stipulates that advisory
committees must be free from inappropriate influence by the appointing authority or special
interests. However, the FACA does not outline specific steps that must be taken to ensure that
this occurs. Consequently, each agency is responsible for developing specific operating
procedures to ensure that its advisory committees can operate independently from the agencies
they serve. Therefore, the NTA should revise the charter to clarify the TAS’ support role and
establish additional guidance to ensure that the integrity of the Panel’s independence is
maintained.
Finally, the Panel’s charter does not account for a significant amount of work completed by the
Panel membership. The Panel serves a dual role, providing a venue for raising citizen concerns
to the IRS and serving as a focus group that provides input to IRS management on IRS strategic
initiatives. A large portion of the recommendations, 245 (58 percent) of 426,18 made by the
Panel since its inception pertain to IRS-driven issues (e.g., the IRS requesting that the Panel
provide the taxpayer’s perspective on issues the IRS is working on). However, the charter,
which is a public document, contains language that mainly focuses on “grass roots” issues and
does not include this important, additional role that Panel members perform. According to
FACA guidance, a committee’s charter should include the committee’s specific duties. This
includes the committee’s objectives and the scope of its activities. In addition, the GSA

18
  Subsequent to our review, TAS management informed us that the correct number of recommendations was 429
and that 264 (62 percent) were IRS-driven issues.
                                                                                                    Page 9
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel



Committee Management Secretariat advised us that the charter should specifically reflect the
scope of committee activities. Therefore, it is important for the NTA to revise the language in
the charter to provide transparency to the public by clearly defining the roles and responsibilities
of the Panel and TAS staff assigned to support the Panel.
Recommendations
The NTA should:
Recommendation 3: Reevaluate the roles of the staff assigned to assist the Panel and
establish guidance to ensure that the Panel functions independently.
        Management’s Response: Management agreed with our recommendation.
        Management indicated they would establish by-laws and include guidance on the liaison
        role of the TAS staff in the Internal Revenue Manual.
Recommendation 4: Revise the charter to clarify the liaison role that TAS employees
provide Panel members and accurately reflect the dual roles of members. Specifically, the
charter should be updated in Section B, Objectives and Scope, as well as Section F, Duties and
Responsibilities. These changes can be made when the current charter expires in March 2010.
        Management’s Response: Management agreed with this recommendation and will
        revise the charter when it expires in March 2010.
Misclassified and Unverified Recommendations Led to an
Overstatement of Accomplishments
After the Panel works on an issue, it may make a recommendation to the IRS to improve its
service to taxpayers. The TAS records the IRS’ responses to the recommendations in the Panel’s
database for tracking purposes. However, we identified inaccuracies with the way the TAS
records the IRS’ responses to the Panel’s recommendations and, consequently, the performance
measures reported to the GSA may be overstated.
According to data maintained in the Panel’s database, the Panel made 426 recommendations
since its inception in Calendar Year 2002.19 Of these recommendations, 181 reflected grass roots
as their source, and 161 of the 181 were categorized as closed.20 According to the database,
almost one-half of the closed recommendations showed a favorable result (e.g., closed as
accepted, implemented, or partially accepted). Figure 2 shows the status of the closed
recommendations.


19
   The term “recommendation” is broadly defined since it includes pre-decisional feedback and other tasks assigned
by IRS program managers during Calendar Years 2003 through 2008.
20
   Subsequent to our review, TAS management informed us that the correct number of recommendations was 429
and that 165 (38 percent) were grass-roots issues.
                                                                                                         Page 10
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel



         Figure 2: Status of Closed Recommendations on the Panel’s Database

      IRS Responses to Panel Recommendations                          Number                Percentage
       Recommendation Accepted                                           37                     23%
       Recommendation Partially Accepted                                 37                     23%
       Recommendation Implemented                                          8                     5%
         Subtotal                                                        82                     51%
       Recommendation Rejected                                           40                     25%
                             21
       All Other Categories                                              39                     24%
       Total                                                            16122                   100%
     Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of the Panel database –
     February 2009.

However, when we analyzed the IRS’ responses to the 82 favorably closed recommendations, we
determined that the IRS did not always agree with these recommendations as the TAS records
indicated. For example, we identified 46 instances (of the 82) in which the TAS entered an
incorrect or unsupported closing designation. In many of the responses, the IRS declined the
Panel’s recommendations, yet the TAS recorded these recommendations as accepted. In
addition, for other closings, the IRS agreed to only consider some recommendations when
planning for future enhancements (e.g., software and tax form updates), not to actually
implement the recommendations. Further, some of the IRS responses indicated that they agreed
to only part of the recommendation, but the TAS recorded those recommendations as fully
accepted.
As a result, the data captured in the database are not reliable, which is a concern because the
database is used to report the Panel’s performance measures to the GSA. As shown in Figure 3,
we identified 46 recommendations in which the IRS appeared to disagree with all or a part of the
Panel’s recommendations.




21
   These were closed for various other reasons and the IRS response, if any, was generally considered to be neutral
(neither accepted nor rejected). See Appendix VII for a listing of closed categories used.
22
   The 161 closed recommendations are from the issues the TAS identified as being “grass roots.”
                                                                                                           Page 11
                           The Taxpayer Advocate Service Should Reevaluate
                          the Roles of Its Staff and Improve the Administration
                                    of the Taxpayer Advocacy Panel



         Figure 3: TIGTA Analysis of IRS Responses to Panel Recommendations
                    Recorded by the TAS as Accepted or Implemented
      TIGTA Assessment of Panel Recommendations                Number of Recommendations
      Proposal Rejected                                                      18
      IRS Indicated They Would Consider                                      15
      the Recommendation (Impact and
      Action Unknown)
      Response Unclear on Whether the IRS                                     7
      Accepted the Recommendation
      Proposal Partially Accepted                                             6
      Total                                                                   46
     Source: TIGTA review of cumulative data in the Panel database. Data were compiled in February 2009.

The Panel’s performance measures reported to the GSA include the total number of
recommendations made (over the life of the committee) and an estimate of the cumulative
percentage of fully or partially implemented recommendations made by the committee. The
GSA, which provides oversight to all advisory committees, incorporates the Panel’s data into the
FACA database. This information is then used by the GSA for conducting annual
comprehensive reviews of accomplishments, costs, benefits, and other factors to gauge the
performance of an advisory committee and whether it should continue in existence.
We raised concerns about the accuracy of the data with TAS management and were advised that
since the results have already been published in the Panel’s annual reports, it would not be a
“judicious use of staff time, or volunteer time” to correct this information. However, TAS
management indicated they would take additional steps in the future to validate the data entries
by conducting quarterly managerial reviews of the closing entries.
We agree that TAS management should establish a process to regularly validate data in the
Panel’s database. However, because the GSA report is based on cumulative data, the TAS
should correct the inaccurate closed recommendations identified in our report in the Panel’s
database and advise the GSA of the revised performance results. Doing so will also allow the
GSA to update the FACA database with the revised results. This is especially important since
the FACA database is utilized by members of Congress, the Government Accountability Office,
and other oversight functions to review information pertaining to Federal advisory committees.
Recommendation
Recommendation 5: The NTA should establish and implement a process to validate data in
the Panel database on an annual basis, prior to the issuance of the Panel’s annual report. In
addition, the NTA should correct the 46 erroneous database entries we identified during our


                                                                                                   Page 12
                           The Taxpayer Advocate Service Should Reevaluate
                          the Roles of Its Staff and Improve the Administration
                                    of the Taxpayer Advocacy Panel



review. The corrected cumulative results should be provided to the GSA by the due date of the
next report.
        Management’s Response: Management agreed with our recommendation and stated
        they will implement procedures to ensure the validity of data in the Panel database.
        Management indicated they will review with the Panel the 46 issues we identified as
        having incorrect closing statuses and modify any entries that have been determined to be
        incorrect. In addition, management agreed to develop additional guidance and training
        regarding the classification of issues.
The TAS does not have a process to ensure that recommendations accepted by
the IRS are implemented
In general, the TAS does not require the IRS to provide time periods for implementing Panel
recommendations that it agrees to. Since the TAS does not have a system to follow up on
accepted recommendations, it cannot ensure that the IRS takes the action as promised. Further,
because Panel members devote a considerable amount of time developing recommendations that
could benefit taxpayers, the TAS should verify that the accepted recommendations are
implemented as agreed to.
We reviewed several recommendations to improve service within the Small
Business/Self-Employed and Wage and Investment Divisions that the IRS accepted more than a
year ago23 and determined that they still have not been implemented. For example, in
January 2006, the Panel recommended changes to the Application for IRS Individual Taxpayer
Identification Number (Form W-7). The IRS agreed to revise the Form, and the TAS closed the
issue in May 2006. However, the IRS has not yet revised the Form W-7 as previously agreed
(the most current revision of the Form W-7, dated March 2009, does not reflect the change).
TAS management advised us that they cannot follow up to ensure that the IRS takes action since
some recommendations may take years to implement. They also indicated that they do not have
the authority to require the IRS to implement any recommendations. While we agree that TAS
management does not have this level of authority, we believe that if the IRS agrees to a
recommendation, then the TAS should follow up to ensure that it gets implemented. If the IRS
later determines that it cannot implement the recommendation as previously agreed, the Panel
database should be updated to reflect this. Consequently, we believe that the IRS should take a
more proactive role to ensure that the Panel’s recommendations are implemented and that the
information in the Panel database is accurate.




23
  We identified nine recommendations that were accepted by the IRS but were not implemented as of May 2009.
These nine recommendations were submitted to the IRS at various times during Calendar Years 2003 through 2008.
                                                                                                     Page 13
                              The Taxpayer Advocate Service Should Reevaluate
                             the Roles of Its Staff and Improve the Administration
                                       of the Taxpayer Advocacy Panel



Recommendation
Recommendation 6: The NTA should establish a process to follow up with the IRS on the
Panel’s recommendations under consideration for future implementation. For all
recommendations accepted by the IRS, the IRS should be asked to provide the anticipated date of
implementation. The TAS should work with the IRS business units to clarify the expectations
when responding to recommendations made by the Panel such as providing a date of
implementation. Further, the TAS should record and track the implementation dates in its
database.
           Management’s Response: Management agreed with the recommendation and plans
           to track the implementation of recommendations which are accepted by the IRS.
Tax Compliance Reviews for Current and Prospective Members Occur
Infrequently and Are Incomplete
Prospective Panel members are required to certify that they are in compliance with their tax
responsibilities before serving their 3-year term. The TAS staff should research the prospective
Panel member’s tax history to confirm compliance before that person is seated on the Panel.
However, our review disclosed that the TAS tax compliance checks are incomplete, not done
frequently enough, and do not address whether licensed practitioners are in good standing with
the IRS.
The TAS does not conduct regular reviews for tax account compliance and the
reviews are incomplete
The TAS was unable to provide documentation for 34 of the 101 Panel members seated in
Calendar Year 2009 to confirm that they were compliant with their tax obligations. In addition,
the TAS had not completed the tax account compliance checks to verify that five individuals
filed their 2007 tax returns before they were seated on the 2009 Panel. The verification was
completed after we asked for the documentation and 2 months after the members had begun
serving their terms.
Some Panel members are self-employed; however, the TAS does not collect the related
Employer Identification Numbers24 nor does it conduct a tax account compliance check of the
applicant’s business. Our review also found that the TAS does not complete annual tax
compliance checks for members currently serving their 3-year term. As a consequence, we
found three instances in which the Panel members were noncompliant either during the course of
their terms or in the calendar year immediately preceding their term.



24
     A unique nine-digit number used to identify a taxpayer’s business account.


                                                                                         Page 14
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel



The TAS policy is to perform a one-time review of the applicant’s tax accounts25 for the three tax
periods preceding his or her selection. In addition, because the review is done only once, Panel
members could become noncompliant while serving their 3-year term. TAS management
advised us that they follow the guidance in Treasury Directive 21-03;26 however, this document
provides no specific guidelines regarding the frequency of the tax compliance checks. It only
establishes the requirement to conduct the tax compliance checks when the Panel member is
appointed.
The Treasury Directive does specify that the tax compliance checks should be conducted by the
agency’s Human Resources Division or Office of Security. However, we noted that the TAS
does not follow this portion of the policy. Rather, the TAS performs its own compliance checks
to ensure timely completion prior to appointment to the Panel. In our opinion, if the TAS
continues to conduct these reviews internally, management should establish formal guidance to
assist employees in identifying potentially noncompliant situations and procedures for addressing
these situations. Formal guidance will help ensure consistent and equal treatment for potential
and current Panel members. Formal procedures should also ensure that the tax compliance
checks are comprehensive enough to identify the three types of noncompliance – failure to file,
failure to pay, and failure to fully report all income.
Recommendation
Recommendation 7: The NTA should establish and follow formal guidance for conducting
tax compliance checks, to include using the Integrated Data Retrieval System27 as a tool for
accomplishing this. The reviews should be comprehensive enough to ensure that selected
applicants have filed all required tax returns, paid all applicable tax due, and fully reported all
taxable income for the previous 3 years. The guidance should also address:
     •   The type of tax forms and periods that must be reviewed to verify that applicants meet the
         criteria for tax compliance.
     •   Annual compliance checks for all continuing members. The checks should include
         researching the members’ Social Security Number as well as the Employer Identification
         Number when applicable.
     •   Identification of the office that should perform the compliance checks.
     •   The specific location of the office where all related documentation shall be maintained.




25
   Tax accounts are individual modules with a record of all transactions for a given tax period.
26
   Establishment and Management of Treasury Advisory Committees, dated July 30, 2007.
27
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 15
                        The Taxpayer Advocate Service Should Reevaluate
                       the Roles of Its Staff and Improve the Administration
                                 of the Taxpayer Advocacy Panel



The TAS should also amend the application form to include the business name and Employer
Identification Number for self-employed applicants.
       Management’s Response: TAS management agreed to establish formal guidance
       for conducting tax compliance checks. They also agreed to amend the tax check waiver
       form to include the business name and Employer Identification Number for self-
       employed applicants and agreed to conduct limited annual compliance checks for
       continuing members. TAS management also agreed to establish guidance to identify the
       office that will perform the compliance check and where all related documentation will
       be maintained.
The TAS does not have procedures to verify that Panel members who are
licensed tax practitioners are in good standing with the IRS
Protecting the public from disreputable tax practitioners has long been a concern for the IRS.
Practitioner misconduct can erode the public’s confidence in our tax system and create
unfortunate consequences for taxpayers relying on unscrupulous tax practitioners. We
determined that approximately one-third of the Panel membership is comprised of tax
practitioners based on our discussions with TAS personnel and our review of documentation
maintained by the TAS. However, no procedures are in place to require the TAS to verify
whether these individuals are allowed to practice before the IRS or whether they are in good
standing. Therefore, we believe the TAS should coordinate with the Office of Professional
Responsibility (OPR) as part of the compliance check for licensed tax practitioners.
The OPR is responsible for regulating licensed tax practitioners who represent taxpayers before
the IRS by setting and enforcing standards of competency, integrity, and conduct. The IRS
publishes the names of practitioners that have been reprimanded on its web site, as well as
providing a searchable database that the TAS can use to research practitioners. The IRS also
regularly publishes the names of practitioners that have been sanctioned in the Internal Revenue
Bulletin, which is issued periodically.
If a licensed tax practitioner engages in disreputable conduct, the OPR may impose disciplinary
actions. Sanctions for disreputable conduct result from such things as the practitioner’s failure to
file several Federal tax returns, making false declarations in bankruptcy proceedings, or failure to
exercise due diligence. In our opinion, this information is readily available and accessible to the
TAS for researching whether a potential Panel member, who is also a practitioner, is reputable.
Although we recognize that the OPR data may not always be complete, they provide some
assurance that potential Panel members are acceptable to serve on the Panel.
Recommendation
Recommendation 8: The NTA should develop procedures for verifying the good standing of
licensed practitioners serving on the Panel. These procedures should address:


                                                                                           Page 16
                     The Taxpayer Advocate Service Should Reevaluate
                    the Roles of Its Staff and Improve the Administration
                              of the Taxpayer Advocacy Panel



•   Revising the Panel application form to ask if the applicant is a tax practitioner.
•   Confirming, during the interview process, if applicants are tax practitioners.
•   Accessing the IRS OPR web site and/or contacting the OPR to determine if applicants
    that are licensed tax practitioners have been subject to disciplinary actions.
    Management’s Response: Management agreed with the recommendation and will
    develop procedures for verifying the good standing of licensed practitioners serving on
    the Panel.




                                                                                         Page 17
                        The Taxpayer Advocate Service Should Reevaluate
                       the Roles of Its Staff and Improve the Administration
                                 of the Taxpayer Advocacy Panel



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Panel is operating in
accordance with its charter and whether the Panel and the TAS are utilizing resources efficiently
to promote improvements in IRS customer service. To accomplish this objective, we:
I.     Determined whether the Panel is operating under the terms identified in the Panel’s
       charter and within the guidelines established under the FACA.
       A. Identified whether members participated on at least one subcommittee and that those
          subcommittee meetings were publicized and held at least quarterly.
       B. Reviewed the Panel’s 2007 annual report and exhibits (with cumulative results) and
          evaluated whether the results accurately represented work completed by the Panel.
       C. Determined whether the Fiscal Year 2008 data provided to the GSA are accurate,
          complete, and timely.
II.    Evaluated the process used to recruit, select, and manage Panel members.
       A. Interviewed TAS management to determine the process used to recruit and select
          Panel members.
       B. Determined whether applicants selected for the Panel are in compliance with their
          Federal tax obligations.
III.   Evaluated the Panel’s process for identifying issues and making recommendations to
       improve customer service.
       A. Interviewed TAS personnel to determine how issues are identified for the Panel’s
          review.
       B. Obtained any available guidance for processing citizen input and responding to IRS
          requests for assistance.
       C. Determined what systems are in place for tracking issues and recommendations and
          evaluated selected fields in the databases used to record issues received and
          recommendations made. We validated the information in the databases through
          sorting the applicable fields and conducting a review for reasonableness. The results
          established that the data were valid for our purposes.
       D. Determined how many grass roots recommendations had been submitted to the IRS
          during Calendar Years 2003 through 2008 and assessed the accuracy of the closing

                                                                                          Page 18
                      The Taxpayer Advocate Service Should Reevaluate
                     the Roles of Its Staff and Improve the Administration
                               of the Taxpayer Advocacy Panel



         category used on the 82 recommendations that were classified as being accepted,
         partially accepted, or implemented.
IV.   Determined the amount of TAS and Panel resources and how these resources were used.
      A. Determined the TAS staffing levels, budget, and Panel membership levels for each
         year since the inception of the Panel.
      B. Identified the roles and responsibilities of each TAS employee assigned to the
         Panel.
      C. Determined whether the current ratio of management to employees is consistent with
         Department of the Treasury/IRS standards.
      D. Determined whether TAS employees are dedicated solely to the Panel or if
         they have other duties and assignments.




                                                                                          Page 19
                      The Taxpayer Advocate Service Should Reevaluate
                     the Roles of Its Staff and Improve the Administration
                               of the Taxpayer Advocacy Panel



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Diana M. Tengesdal, Acting Director
Janice M. Pryor, Audit Manager
Mary F. Herberger, Lead Auditor
Mark A. Judson, Senior Auditor
James S. Mills Jr., Senior Auditor
Yasmin B. Ryan, Senior Auditor
Ahmed M. Tobaa, Senior Auditor
Michele N. Strong, Auditor




                                                                                  Page 20
                      The Taxpayer Advocate Service Should Reevaluate
                     the Roles of Its Staff and Improve the Administration
                               of the Taxpayer Advocacy Panel



                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
Deputy National Taxpayer Advocate TA
Director, Taxpayer Advocacy Panel TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: National Taxpayer Advocate TA




                                                                             Page 21
                       The Taxpayer Advocate Service Should Reevaluate
                      the Roles of Its Staff and Improve the Administration
                                of the Taxpayer Advocacy Panel



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; status of 46 closed recommendations on the Panel
    database that were incorrectly recorded by the TAS (see page 10).
Methodology Used to Measure the Reported Benefit:
We identified a population of 82 Panel recommendations that were submitted to the IRS during
Calendar Years 2003 through 2008 that the TAS recorded as being accepted or implemented by
the IRS. Forty-six of the 82 recommendations were inaccurately recorded by the TAS as having
been accepted or implemented by the IRS when, in fact, they were either only partially accepted,
not accepted, or unclear whether they were accepted. This results in stakeholders, such as the
Department of the Treasury, the GSA, and the public potentially relying on incorrect and
inaccurate information, and basing decisions on the accomplishments and benefits of the Panel
on this erroneous data.




                                                                                         Page 22
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel



                                                                                                Appendix V

     Taxpayer Advocacy Panel Issue Committees - Fiscal
                        Year 2009

 Earned Income Tax Credit Issue Committee - recommends ways to enhance Earned Income
 Tax Credit marketing and educational products to ensure that Earned Income Tax Credit
 information is available to all low-income workers.
 Notice Improvement Issue Committee - works with the Wage and Investment and Small
 Business/Self-Employed Divisions to advise the IRS about clarity and tone of letters sent to
 taxpayers. Panel members review the proposed language, tone, and usability of new or modified
 documents.
 Small Business/Self-Employed Division Issue Committee - explores ways to increase the
 number of employment tax returns that are filed electronically and improve the quality and
 accessibility of guidance on mortgage foreclosures.
 Taxpayer Assistance Centers1 Issue Committee - supports the IRS Wage and Investment
 Division which manages all IRS Taxpayer Assistance Centers. The Committee will analyze the
 payment receipt and processing systems and look for ways to improve the process.
 Volunteer Income Tax Assistance Issue Committee - assists the IRS in assessing the accuracy
 of returns prepared at Volunteer Income Tax Assistance and Tax Counseling for the Elderly
 locations.
 Multi-Lingual Initiatives Issue Committee - aims to expand products and services for
 limited-English-proficient taxpayers (Spanish, Korean, Chinese, Vietnamese, and Russian). The
 committee will also provide feedback on non-English products.
 Tax Forms and Publications/Language Services Issue Committee - provides timely feedback
 on 2009 Filing Season products, such as the First Time Home Buyers Credit, provides specific
 comments on how to improve Tax Forms and Publications, and provides a centralized focus on all
 Panel recommendations for IRS tax products.
 Communications Committee - develops communications strategies and products to be used by
 Taxpayer Advocacy Panel for internal Taxpayer Advocacy Panel business and for interacting with
 the taxpaying public.
Source: Taxpayer Advocacy Panel web site, ImproveIRS.org, accessed on March 19, 2009, and TAS management.

 1
   IRS “walk-in” offices with employees who answer questions, provide assistance, and resolve account-related
 issues for taxpayers in a face-to-face setting.
                                                                                                          Page 23
                              The Taxpayer Advocate Service Should Reevaluate
                             the Roles of Its Staff and Improve the Administration
                                       of the Taxpayer Advocacy Panel



                                                                                                  Appendix VI

                       Taxpayer Advocate Service Staff

                         Figure 1: TAS Staffing Dedicated to the Panel
                                     Position Title                     Number of Positions

                    Director                                                                  1

                    Field Manager                                                             4

                    Analyst                                                                  15

                    Secretary                                                                 5

                    Total1                                                                   25
                  Source: TIGTA review of the TAS staff assigned to the Panel as of April 2009.

    Figure 2: Comparison of the Panel to Other IRS Advisory Committees Reviewed2
                                                        Fiscal Year      Percentage      Fiscal Year       Number
            IRS Advisory Committees
                                                        2008 Staff      of Total Staff      2008           of Panel
                                                           Costs            Costs         Full-Time        Members
                                                                                         Equivalents3

Taxpayer Advocacy Panel                                   $1,882,842              70%              18.9        1114

IRS Advisory Council                                        $360,000              13%                 5          26

Information Reporting Program Advisory Committee            $355,500              13%                 3          33

Electronic Tax Administration Advisory Committee             $70,000               3%                .7          14

Tax Exempt and Governmental Entities Division                $25,000               1%                .5          21
Advisory Committee
                                                          $2,693,342            100%                ----        ----
Total Fiscal Year 2008 Staff Costs
Source: FACA database.


1
  Other IRS employees also support the Panel on an as-needed basis.
2
  Data were obtained from the FACA database for Fiscal Year 2008.
3
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year. For Fiscal Year 2008, 1 Full-Time Equivalent was equal to 2,096 staff
hours.
4
  This includes members who resigned before their term was completed and does not include the alternates selected.
                                                                                                           Page 24
                            The Taxpayer Advocate Service Should Reevaluate
                           the Roles of Its Staff and Improve the Administration
                                     of the Taxpayer Advocacy Panel



                                                                                  Appendix VII

                        Definition of Recommendations

                 Figure 1: Closed Categories for Panel Recommendations

 Closed, Proposal Accepted
 The IRS indicates the proposal is fully accepted. The proposal may or may not be implemented,
 but the IRS has agreed to the recommendation.
 Closed, Proposal Partially Accepted
 The IRS indicates the proposal is partially accepted. The proposal may or may not be
 implemented, but the IRS has agreed to the recommendation in part. The partial acceptance
 should be explained in the Response Notes.
 Closed, Proposal Rejected
 The IRS has indicated that the proposal is rejected. The reasons for the rejection should be
 explained in the Response Notes.
 Closed, Proposal Implemented
 The IRS has fully or partially implemented the proposal. A partial implementation should be
 explained in the Response Notes.
Source: Draft Internal Revenue Manual Section 13.7.1, dated January 27, 2009.

              Figure 2: Other Categories Used for Panel Recommendations

 Closed, Project/Assignment Completed
 Used for Issue Committee tasks or projects that are completed.
 Elevated Directly by Committee
 Term previously used by Issue Committees to indicate tasks or projects were completed.
 Closed
 Used primarily with legislative or regulatory issues or line-by-line issues on forms, publications,
 and notices when only general acknowledgement is received and no specific feedback is
 provided.
Source: TIGTA analysis of the Panel database, dated April 2009.



                                                                                            Page 25
        The Taxpayer Advocate Service Should Reevaluate
       the Roles of Its Staff and Improve the Administration
                 of the Taxpayer Advocacy Panel



                                                   Appendix VIII

Management’s Response to the Draft Report




                                                               Page 26
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 27
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 28
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 29
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 30
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 31
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 32
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 33
 The Taxpayer Advocate Service Should Reevaluate
the Roles of Its Staff and Improve the Administration
          of the Taxpayer Advocacy Panel




                                                        Page 34
